         estimony

                     STATEMENT OF
                  ROBERT J. LIEBERMAN
             ASSISTANT INSPECTOR GENERAL
                     FOR AUDITING
               DEPARTMENT OF DEFENSE
                      BEFORE THE
      SUBCOMMITTEE ON GOVERNMENT MANAGEMENT,
            INFORMATION AND TECHNOLOGY,
       HOUSE COMMITTEE ON GOVERNMENT REFORM
                           ON
           DEFENSE ACQUISITION MANAGEMENT


Report No. D-2000-106     DELIVERED: March 16, 2000



             Office of the Inspector General
                 Department of Defense
Mr. Chairman and Members of the Committee:



I appreciate the opportunity to testify before you today on the

always challenging and important subject of Defense acquisition

management.   As you are well aware, the cost, quality and need

for military equipment and supplies have been contentious issues

in this country for over 200 years.   In FY 1999, the Department

of Defense bought about $140 billion in goods and services, in

14.8 million purchasing actions.   The complexity, variety, scale

and frequent instability of Defense acquisition programs pose

particularly daunting management challenges.   Today, those

challenges are centered more than ever on the need to strike

difficult balances, such as:



     maintaining technological superiority, but not over

     designing weapon and information systems so that they

     are unaffordable;



     expediting the development and production of systems so

     that our forces have the best available equipment, without

     rushing untested systems prematurely into production and

     use;
                                                              2


achieving standardization to reduce costs and logistics

problems, without stifling innovation and short changing

genuinely unique requirements;



purchasing supplies quickly to ensure rapid response to the

needs of the operating units, without paying exorbitant

prices or over buying because of poor analysis of

requirements and prices;



ensuring high quality for all material on which our

military forces depend, without over prescribing details

related to design, content and production methods;



improving Defense acquisition results by learning from best

practices in the commercial sector, without trying to adopt

practices that may not be appropriate or readily adaptable

to the public sector;



Reducing the red tape and streamlining overly bureaucratic

processes without weakening essential management controls

and de-emphasizing due diligence in handling public

resources;
                                                                   3


     striving for rapid and far-reaching acquisition process

     improvements, without overwhelming the workforce with

     changes that are not accompanied by timely and effective

     training; and



     attempting to minimize the cost of Defense support

     functions, without reducing the workforce past the point

     where it can effectively handle its workload.



The focus for concerns regarding Defense acquisition shifts

periodically.   During the 1970’s, the principal problems were

cost overruns on major weapon system contracts and huge

contractor claims.   In the 1980’s there were major issues

concerning the adequacy of testing, contractor fraud, overpriced

spare parts and corruption involving Navy procurement officials

(the Ill Wind scandal).   In the 1990’s there were the A-12

Intruder program failure; increasing concerns about the

inordinate time needed to field new systems; growing

dissatisfaction with perceived over regulation and red tape;

concerns over the affordability of systems with high per unit

costs; imbalances between spending for investments, overhead

support and operations; and contraction of the Defense

industrial base.
                                                                      4


Acquisition Reform.   The Department of Defense has been seeking

acquisition process improvements almost continuously for at

least 20 years.   Likewise, Congress legislates changes in both

program content and procurement practices almost annually.

However, there has been intensified interest and effort during

the past several years.     The Department has initiated an

unprecedented number of major improvement initiatives across the

spectrum of DoD activities, including at least 40 significant

acquisition reform initiatives.     The Congress has passed very

important reform legislation, including the Federal Acquisition

Streamlining Act of 1994 and the Clinger/Cohen Act of 1996.     The

Department has made notable progress in acquisition reform and

also set several commendable goals.     Examples include:



     de-emphasizing overly detailed military specifications and

     standards;



     using credit cards for nearly 9 million small purchases in

     FY 1999;



     pushing for public and private sector implementation of

     public key infrastructure technology to enable secure

     electronic commerce;
                                                                   5


     replacing multiple, inconsistent, government-unique

     requirements imposed on contractors holding more than one

     Defense contract with common, best, facility-wide

     processes; and



     establishing aggressive weapon system unit cost and total

     ownership cost targets, which are 20 to 50 percent below

     historical norms and will be challenging to meet.



I assume that other witnesses today will discuss additional

initiatives.



Inspector General Role in Acquisition Reform.   Since its

establishment in 1982, the Office of the Inspector General, DoD,

has issued hundreds of audit reports identifying problems in

Defense acquisition programs and opportunities for improving

efficiency and effectiveness.   In addition, the principal focus

of the Defense Criminal Investigative Service, the criminal

investigative component of the Office of the Inspector General,

DoD, always has been procurement fraud, in its various forms.

Based on the many risks, vulnerabilities and problems identified

by this audit and investigative effort, the Office of the

Inspector General, DoD, has been in the forefront of those

calling for improved management across the spectrum of Defense
                                                                   6


acquisition program activities, from initial requirements

determination through purchasing and delivery of goods and

services.



Most acquisition audits and investigations provide insight

into how well individual programs and contracts are managed.

Many of them also provide independent feedback on how well the

Department’s overall acquisition policies and applicable laws or

regulations are being implemented, and whether they are having

the intended effect.   Audits are a particularly useful tool for

verifying that reported performance information is accurate and

previously identified problems have been corrected.



Unfortunately, in recent years our oversight of Defense

acquisition has been severely constrained by resource shortfalls

and conflicting priorities.   In testimony last month before the

House Budget Committee, the Deputy IG expressed concern that

audit coverage has been inadequate in nearly all Defense

management sectors that we and the General Accounting Office

have identified as high risk areas.



The DoD needs a broad, systematic program of comprehensive

audits of acquisition programs, but does not have one.

Currently, less than ten of the several hundred weapon system
                                                                    7


projects are being comprehensively reviewed by DoD internal

auditors each year.   The same holds true for the 79 major

information system development and modification projects and the

hundreds of smaller projects in the information technology area.

The Department spent $51.8 billion for consultants and other

support services in FY 1999, yet there have been only a few

recent internal audits on management controls over contracting

for services.   Finally, there is limited independent information

available on the progress of the 40 reform initiatives and the

need for other initiatives.



The heavy workload created by the successful DoD Year 2000

conversion effort, which my office supported with over

180 audits, is now behind us and we are trying to redress the

imbalances in coverage caused by that extraordinary effort.

There continue to be conflicting priorities for audits, such as

information security, readiness issues and financial reporting.

Last year, the DoD decided not to proceed with most of the

planned continued reduction of the IG budget, which had already

been reduced by 26 percent since 1995.   Unfortunately, the

appropriations committees cut our FY 2000 request, which hampers

our ability to do more in vital areas like acquisition.   We hope

to be able to better explain our resource situation this year
                                                                   8


and to achieve congressional support of our FY 2001 budget

request.



In addition to audit and investigative efforts, the IG role

in acquisition management improvement includes reviewing all

proposed legislative and regulatory changes.    The Department

has been generally responsive to our advice on such matters and

congressional committees also request our views on acquisition

legislation issues on a routine basis.



To study acquisition issues, identify opportunities for reform,

suggest specific actions, plan implementation strategies or

monitor progress, the Department often forms cross-

organizational teams and task forces.    Assisting those efforts

is a high priority for us.   Senior audit personnel currently

are participating as official team members or advisors for

16 acquisition or logistics reform teams.    They include the

Acquisition Reform Senior Steering Group, Acquisition Deskbook

Working Group, Joint Contracting Pilot Program, and a team

working on long term pricing arrangements for spare parts.



Special Emphasis Areas.   There are a myriad of challenges and

potential issues inherent in the processes for deciding what

force structure is needed to implement the national security
                                                                     9


strategy; what weapon systems are needed to assure success in

combat; what supporting information systems, supplies and other

logistical support are needed; what the required goods and

services should cost; what is affordable; what acquisition

strategy would be best; what prices are reasonable; and so

forth.   Today I would like to focus on three of those many sets

of issues, using recent audit results from the reports that are

listed in the attachment to this statement.    Those three areas

are contracting for services, spare parts pricing and

acquisition workforce reductions.



Contracting for Services.     Issues related to Defense weaponry

and other equipment attract the most oversight emphasis and

publicity, yet the annual DoD expenditures for contractor

services constitute a huge acquisition program in their own

right.   From FY 1992 through FY 1999, DoD procurement of

services increased from $39.9 billion to $51.8 billion annually.

The largest sub-category of contracts for services was for

professional, administrative, and management support services,

valued at $10.3 billion.    Spending in this sub-category

increased by 54 percent between 1992 and 1999.    It probably will

continue to grow as outsourcing initiatives expand.
                                                                   10


Deliverables from contracts for services often are not as

tangible as hardware, such as a missile or even a set of tires.

Quantifiable information on requirements, performance and costs

frequently is harder to develop, and overworked contracting

personnel are more likely to give priority attention to

equipment procurements than to mundane contracting actions for

consulting services or information systems support.    Also,

except for travel and transportation services, the increased

efficiencies derived from e-commerce pertain much more to goods

than to services.    We believe that, because of these factors,

DoD managers and contracting personnel were not putting

sufficient priority during the 1990’s on this sector of Defense

acquisition, which likewise was virtually ignored for the first

few years of recent acquisition reform efforts.    Consequently,

we think the risk of waste in this area is higher than has been

commonly realized.



The awareness of the need for more emphasis on services

contracts has been growing over the past year, in part because

of two major audits, whose results I would like to summarize

for you.
                                                                   11


Multiple Award Task Order Contracts.



The Federal Acquisition Streamlining Act authorized agency heads

to enter into multiple award delivery and task order contracts

for procuring goods and services.   Multiple award contracts

occur when two or more contracts are awarded from one

solicitation.   Generally these contracts have broad scopes and

dozens of subsequent task orders are awarded by the Government

over the life of the contract.   The Act established a general

preference for using multiple awards and mandates their use for

advisory and assistance services contracts exceeding $10 million

and 3 years duration.   The Act also stipulates that contractors

on a multiple award arrangement are to be provided a “fair

opportunity to be considered” for individual task and delivery

orders over $2,500.



Multiple award contracts are an excellent tool for avoiding

duplicative solicitations and speeding up the contracting

process.   Their advantages are degraded, however, if the

individual task and delivery orders are inappropriately

sole-sourced or poorly priced.



In April 1999, we reported the results of an audit of 156

orders, valued at $143.7 million and placed on 12 multiple award
                                                                   12


contracts between 1995 and 1998.    We found few problems with

delivery orders for goods, but significant problems with task

orders for services.    Specifically:



     Contracting officers awarded task orders without regard to

     price, even though price also was not a substantial factor

     in the selection of vendors for the initial multiple award

     contract.   As a result, higher-priced contractors were

     awarded 36 of 58 task orders that were competed.    We

     identified $3 million in additional costs resulting from

     awarding orders to contractors with higher-priced bids.



     Contracting officers directed work and issued orders on

     a sole-source basis for 66 task orders, valued at

     $47.2 million, without providing the other contractors

     a fair opportunity to be considered.   Only 8 of the 66

     orders, valued at $8.8 million, had valid justification for

     sole-source award.   As a result, DoD almost certainly paid

     higher prices than would have been the case if competition

     had been sought.



These problems were caused by a variety of factors, including

difficulty in establishing pricing on the multiple award

contracts at the time of award, because requirements for the
                                                                   13


number and scope of subsequent task orders were not well

understood.   Contractors also were not sure of the amount of

work they would receive, making it hard to forecast costs.

Regarding the failure to compete task orders, I believe the

causes were somewhat vague regulations, pressure to make task

order awards rapidly, and perhaps excessive workload in some

contracting offices.



In response to the audit findings, the Director for Defense

Procurement has been gathering information from the Military

Departments on the need to establish a competition goal for

task orders on multiple award contracts-—we had suggested that

a goal of 90 percent would be advisable.   The Director also

issued a memorandum in April 1999 calling the audit results

to the attention of senior acquisition officials.   The Congress

took action by mandating in Section 804 of the National Defense

Authorization Act for FY 2000 that the Federal Acquisition

Regulation be revised to improve guidance on the appropriate use

of task order and delivery order contracts.



Other Problem Indicators.   In light of the problems found by

the audit on multiple award task order contracts and various

other, more narrowly scoped audits, we undertook a comprehensive

audit last year to look at services contracts.   We reviewed
                                                                 14


105 Army, Navy and Air Force contracting actions, valued at

$6.7 billion, for a wide range of professional, administrative

and management support services amounting to about 104 million

labor hours, or 50,230 staff years.



We were startled by the audit results, because we found problems

with every one of the 105 actions.    In nearly 10 years of

managing the audit office of the IG, DoD, I do not ever recall

finding problems on every item in that large a sample of

transactions, programs or data.   The specific problems included:



     Failure to use prior history to define requirements

     (58 actions);



     Poor Government cost estimates (81 actions);



     Cursory technical reviews (60 actions);



     Inadequate competition (63 actions);



     Failure to award multiple award contracts (7 actions);



     Incomplete price negotiation memorandums (71 actions);
                                                                  15


     Inadequate contract surveillance (56 actions);



     Lack of cost controls (21 actions);



It was impossible to quantify the monetary impact of these

deficiencies, but clearly waste was occurring.   For example,

sole-source cost-type contracts that placed a higher risk on the

Government continued without question for the same services for

inordinate lengths of time-—39 years in one extreme case—-and

pricing was questionable.   We also observed that there were no

performance measures in use to judge the efficiency and

effectiveness of the services rendered.



We made numerous recommendations to management to address these

problems, stressing the paramount need for more effective

training.   Many cost-reimbursable contracts for repetitive tasks

should be converted to more economical fixed price contracts.

We also endorsed establishing centers of excellence, which in

this case would be specialized contracting organizations or

cadre, as a means of developing in-depth expertise on the

services markets and on services contracting techniques.    We

understand that this concept has proven highly beneficial for

private sector businesses that purchase large volumes and

varieties of contractor services.   The Department has not yet
                                                                   16


informed us of its position on all of our recommendations, but

the partial responses to date have been positive.



In fact, recently we have noted a welcome upswing in interest

and activity regarding contracting for services and we are

assisting in efforts such as developing a Performance Based

Service Acquisition Training Class.   We agree with the Federal

Procurement Executives Council that performance based

acquisition strategies should be heavily emphasized when

contracting for services and we support the putative goal of

making half of services contracts performance based by 2005.    We

welcome DoD plans for putting information such as a guide for

performance based service acquisitions on the web and

establishing a baseline and measures for tracking progress on

expanding the performance based approach.



Continuing Spare Parts Pricing Issues.   In early 1998, we began

issuing a series of audit reports on prices paid for aviation

spare parts and equipment.   As you may recall from congressional

hearings at the time and intermittent publicity since, we found

that prices paid under new, commercial type contracting

arrangements were considerably higher than was the case when the

same items were procured previously under “traditional” Defense

contracts or ordering agreements.   In one case, DoD paid
                                                                   17


modestly discounted, but still excessive, contractor catalog

prices that were $4.5 million (280 percent) higher than fair and

reasonable prices for $6.1 million of commercial items from one

supplier.



Although the Department has been generally responsive to the

problems that we have identified on individual contracts, new

examples continue to surface as we do additional audits.      We

have issued 5 more reports on spare parts in the last two years.

One report provided good news and the other four described

problems.   Most recently, in a pair of reports issued a few days

ago, we discussed pricing in a prototype contract for supply

support from what the DoD refers to as a virtual prime vendor.

Under this concept, one vendor anticipates DoD needs for a

specified list of commodities and assumes responsibility for

having inventory on hand to meet those needs, using a range of

modern commercial business practices and techniques.

Theoretically, considerable savings should result from shifting

the burden of carrying inventory to the vendor.



As with many prototypes, the terms of this particular contract

needed some adjustments.     The audit indicated that DoD was

paying 38 percent more than necessary for a variety of aviation

components and spares.     The most egregious example was a
                                                                      18


propeller blade heater for C-130 and P-3 aircraft.     We

calculated that the $1.4 million paid in 1998 for blade heaters

was from 124 to 148 percent more than fair and reasonable

prices.   Although management did not agree with many of our

exact calculations, the Department fully agreed with our

recommendation to use an entirely different contracting

approach, namely, a long-term strategic supplier alliance.       In

fact, initial meetings with the contractor to explore that

approach were held during the audit.



There are a variety of problems to be addressed in spare parts

procurement.     First, the Government must learn to be a smarter

buyer in terms of pooling its purchases to maximize its market

leverage, enable in-depth market research by specialists and use

economic order quantity approaches where feasible.     Second, it

needs to do everything possible to maximize competition and

avoid sole-source situations.     Virtually all of the pricing

problems identified by our audits arose on sole-source

contracts.     Third, it needs to consider root causes of poor

purchasing decisions:     under staffing in DoD procurement

offices, unreliable inventory data and inadequate training.

Fourth, it needs to pursue long term pricing arrangements with

key suppliers, with mutual incentives for price reduction.

Fifth, it should use the tools already made available by the
                                                                    19


Congress-—including the ability under the Truth in Negotiations

Act to obtain certified contractor cost data-—to ensure fair

pricing in sole-source procurements.     For commercial items, to

which the Truth in Negotiations Act does not apply, contracting

officers can still negotiate good prices on the basis of

uncertified cost data.     Some DoD acquisition officials

discourage them from doing so, but offer no practical

alternatives for situations where no competitive market forces

exist to drive down prices.



Acquisition Workforce Issues.     Having made previous references

to problems caused by lack of contracting workforce capacity and

training, I would like to call your attention to our Report on

the DoD Acquisition Workforce Reduction Trends and Impacts,

dated February 29, 2000.



The DoD reduced its acquisition workforce from 460,516 in

September 1991 to 230,556 in September 1999 and further cuts are

likely.   If workload had been reduced proportionally,

eliminating half of the acquisition positions could be regarded

as a positive achievement.     Unfortunately, this has not been the

case.   From FY 1990 through FY 1999, the value of DoD

procurement actions decreased from $144.7 billion to

$139.8 billion, about 3 percent.     The number of procurement
                                                                 20


actions increased from 13.2 million to 14.8 million, about

12 percent.   The greatest amount of work for acquisition

personnel occurs on contracting actions over $100,000, and the

annual number of those actions increased from 97,948 to 125,692,

about 28 percent, from FY 1990 to FY 1999.



We surveyed 14 of the 21 major acquisition organizations and

found this growing imbalance between resources and workload is

a major concern.   Acquisition personnel told us that the adverse

consequences include:



     skill imbalances (9 organizations), and



     insufficient staff to manage requirements efficiently

     (9 organizations),



     increased program costs resulting from contracting for

     technical support versus using in-house technical support

     (7 organizations),



     personnel retention difficulty (6 organizations),



     reduced scrutiny and timeliness in reviewing acquisition

     actions (4 organizations),
                                                                  21




     increased backlog in closing out completed contracts

     (3 organizations),



     lost opportunities to develop cost savings initiatives

     (2 organizations).



I believe that this impact list is conservative and, if further

downsizing occurs, these staffing management problems and

performance shortfalls can only get worse.



Likewise, there is cause for serious concern in the likelihood

of the DoD acquisition workforce losing about 55,000 experienced

personnel through attrition by FY 2005 and in the overall

disconnects between workload forecasts, performance measures,

productivity indicators, and plans for workforce sizing and

training.



In a general sense, DoD acquisition workforce reductions are

part of the overall downsizing of the Federal and Defense

workforce.   However, Congress has singled out the DoD

acquisition population for separate downsizing emphasis,

while allowing the Secretary of Defense considerable latitude

in implementing reductions.   We hope that our report will
                                                                    22


assist both the Congress and the Department to take stock of the

long-term human capital requirements in this crucial area.    The

Department’s response to the report was positive and there

appears to be growing awareness of the serious risks related to

the Defense acquisition staffing outlook.



A reasonably sized, well-trained and highly motivated workforce

is by far our best safeguard against inefficiency and waste.



Conclusion.   The Office of the Inspector General, DoD, continues

to be a strong supporter of acquisition reform.   I appreciate

your interest in our reports and views on these challenging

matters.   This concludes my statement.
                    Acquisition Audit Reports
                    By Inspector General, DoD
                   Mentioned in this Testimony


99-026, Commercial Spare Parts Purchased on a Corporate
Contract, October 30, 1998. The DoD paid a 54.5 percent
premium, $3.2 million, on the audited contract for aviation
spares in fiscal years 1996 and 1997, but did not use the
services offered at the higher prices.

99-116, DoD Use of Multiple Award Task Order Contracts (4/2/99).
The audit was requested by Senator Carl Levin. Task orders were
awarded without sufficient consideration to price on 36 of 58
audited task orders. Only 8 of 66 audited sole-source task
orders had valid sole-source justifications.

99-217, Sole-Source Commercial Spare Parts Procured on a
Requirements Type Contract (7/21/99). A cost-based requirements
contract for aviation spares was appropriately priced.

99-218, Sole-Source Noncommercial Spare Parts Orders on a Basic
Ordering Agreement (7/21/99). The DoD paid $4.9 million (18
percent) more than fair and reasonable prices for $32.2 million
of aviation spares on a basic ordering agreement during fiscal
years 1996 through 1998.

00-088, DoD Acquisition Workforce Reduction Trends and Impacts
(2/29/00). The Department needs to reconsider the appropriate
size and skills mix of the acquisition workforce, which has been
cut in half without significant workload reduction and faces
future skills shortages.

00-098, Spare Parts and Logistics Support Procured on a Virtual
Prime Vendor Contract (3/8/00). A long term alliance
arrangement would be preferable to the contractual terms under
which overpriced aviation spares were purchased in 1997 and
1998. (Report currently available only in a For Official Use
Only version.)

00-099, Procurement of the Blade Heaters for the C-130 and P-3
Aircraft (3/8/00). This report discusses one of the overpriced
spare parts procured under the contract that is evaluated in
Report No. 00-098. (Report currently available only in a For
Official Use Only version.)

00-100, Award and Administration of Contracts for Professional,
Administrative and Management Support Services (3/10/00). The
Military Departments needed to put more emphasis on all aspects
of procurement planning, contracting and contract administration
for services.
